Cl
I.

5

l

FILED
NOV 0 2 2020
IN THE SUPREME COURT OF THE UNITED STATES OF AMERICA.

PETRA MARTINEZ, STAN
ATKINSOM,
Petitioners,

9th Cir. No.: 19-16268
(U. S. D. C., N. D. Cal. No. 5:18-cv02869-LHK (N. D. Cal. 2019))

v.
AMERICA’S WHOLESALE LENDER,
a dissolved New York corporation, Respondent.
PETITION FOR WRIT OF CERTIORARI.
On Petition for Writ of Certiorari from the Judgment
Of the United States Court of Appeals
For the Ninth Circuit.
PETRA MARTINEZ
STAN ATKINSON
P.O. Box 4019
Monterey, CA., 93942
TEL.: (831) 901-3399
dr atkinson@comcast.net
PeTitioners in Pro Se

Petition For Writ of Certiorari-Martinez v. America’s
Wholesale Lender Inc -1

RECEIVED
NOV -5 2020

QUESTIONS PRESENTED.
1. Is the Opinion below in conflict with the opinions of the Courts of the State
of New York in that Respondent America’s Wholesale Lender is a dissolved
New York corporation ineligible to file it’s Notice of Removal with the
District Court?
2. Is the Opinion below in conflict with the opinions of this Court in that the
Action below is not subject to claim preclusion?

Petition For Writ of Certiorari-Martinez v. America’s
Wholesale Lender Inc - 2

*

CORPORATE DISCLOSURE STATEMENT.
Respondent America’s Wholesale Lender is a dissolved New York
corporation, effective June 29, 2016. No other Documents have since been filed
with the Secretary of State of the State of New York showing that it has since been
revived, merged, or any other action showing that it legally exists in some form.

Petition For Writ of Certiorari-Martinez v. America’s
Wholesale Lender Inc - 3

LIST OF EXISTING CASES.
In order to determine recusal, Petitioners state the following cases that has
been filed involving Petitioners and Respondent:
Atkinson v. America’s Wholesale Lender, Monterey Superior Court Case No.
18CV000117; removed.
Atkinson v. America’s Wholesale Lender, United States District Court,
Northern District of California, Case No. 5:18-cv-02869-LHK; Judgment against
Petitioners.
Atkinson v. America’s Wholesale Lender, Ninth Circuit No. 18-17058;
reversed and remanded.
Atkinson v. America’s Wholesale Lender, Ninth Circuit No. 19-16268;
affirmed.

Petition For Writ of Certiorari-Martinez v. America’s
Wholesale Lender Inc - 4

TABLE OF CONTENTS.
CITATIONS.

10

STATEMENT OF JURISDICTION.

10

STATUTORY PROVISIONS.

10

STATEMENT OF THE CASE.

10

REASONS FOR GRANTING THE WRIT.

11

THE NINTH CIRCUIT IS IN CONFLICT WITH THE
I.
COURTS OF THE STATE OF NEW YERK IN THAT
RESPONDENT WAS A NEW YORK CORPORATION THAT WAS
DISSOLVED ON JUNE 26, 2016, AND NEVER REVIVED,
MAKING IT INELEIGIBLE TO FILE A NOTICE OF REMOVAL
OF PETITIONERS’ COMPLAINT IN THE DISTRICT COURT ON
11
MAY 16, 2018.
II.
THE NINTH CIRCUIT IS IN CONFLICT WITH THE
DECISIONS OF THIS COURT IN THAT BECAUSE OF THE LACK
OF CAPACITY, PETITIONERS MAY STILL PURSUE THEIR
ACTION, AND THE MOTION TO DISMISS SHOULD HAVE BEEN
12
DENIED.
15

CONCLUSION.
APPENDIX.
MMORANDUM, FILED JUNE 9,2020.

la

DISTRICT COURT JUDGMENT.

4a

ORDER DISMISSING PLAINTIFFS’ COMPLAINT WITH
PREJUDICE; DENYING PLAINTIFFS’ REQUEST TO HOLD
DEFENDANT’S ATTORNEYS IN CONTEMPT.

5a

MMORANDUM, FILED MARCH 19, 2019.

9a

NOTICE OF RESCISSION FROM NEW YORK SECRETARY OF
12a
STATE.
DEED OF TRUST ON 25339 CAMINO DE CHAMISAL, SALINAS,
14a
CALIFORNIA.
Petition For Writ of Certiorari-Martinez v. America’s
Wholesale Lender Inc - 5

*

QUOTING OF STATUTES.

Petition For Writ of Certiorari-Martinez v. America’s
Wholesale Lender Inc - 6

30a

TABLE OF CASES.
41 East 1st Street Rehab Corp. v. Lopez. 26 Misc.3d 990 (2009).

12

Centurion Capital Corp. v. Guarino, 35 Misc. 3d 1219 (N.Y. Civ. Ct.
12, 13

2012).
Lawlor v. National Screen Service Corp., 349 U. S. 322, 327—328 (1955)/

14

Lucky Brand Dungarees, Inc., v. Marcel Fashions Group, Inc.,
https://www.supremecourt.gOv/opinions/19pdf/l8-1086 new 5ifl.pdf, at p.
13-14

9 (2020).
Whole Woman’s Health v. Hellerstedt, 579 U. S.
at 12).

Petition For Writ of Certiorari-Martinez v. America’s
Wholesale Lender Inc - 7

(2016) (slip op.,
14

TABLE OF AUTHORITIES.
28 U. S. C., §1254(1).

10

28 U. S. C., §1291.

10

28 U. S. C., § 1441(b).

10, 12

Federal Rule of Civil Procedure 11.

10, 12

New York Tax Law §203-a.

Petition For Writ of Certiorari-Martinez v. America’s
Wholesale Lender Inc - 8

10

CITATIONS.
The Judgment was granted against Petitioners in the case of Atkinson v.
America’s Wholesale Lender, Ninth Circuit No. 19-16268 (2020), dated June 9,
2020, and is unreported.
STATEMENT OF JURISDICTION.
The District Court had proceeded pursuant to 28 U. S. C., §1441 (b). The
Ninth Circuit had jurisdiction pursuant to 28 U. S. C., §1291. This Court has
jurisdiction pursuant to 28 U. S. C., §1254(1). Petitioners are seeking to review the
Judgment, entered on June 9, 2020 (Apx. la-3a).
STATUTORY PROVISIONS.
United States Code, 28 U. S. C., §1441; Federal Rule of Civil Procedure 11;
New York Tax Law §203-a (Apx. 30a-3 la).
STATEMENT OF THE CASE.
Certified letters from New York Department of State and California
Secretary of State indicate that Respondent AMERICA'S WHOLESALE
LENDER was not a corporation in New York or California in 2006; said
Respondent was incorporated in New York in 2008, and finally dissolved on June
29, 2016 (Dock. No. 1, pp. 45-46, Apx. 12a-13a).
In addition, it was discovered that Respondent AMERICA'S WHOLESALE
LENDER had no business license, authorizing the lending of money, had no bank
account. It lent no money to the Petitioners, and that it did not record a Fictitious
Business Name Statement in the County of Monterey.
On May 16, 2018, Respondent removed the Action to District Court (Dock.
No. 1).
The Action was dismissed by the District Court, but the Ninth Circuit ruled
in Ninth Circuit No. 18-17058 (Apx. 9a-1 la) that "We are unable on this record to

Petition For Writ of Certiorari-Martinez v. America’s
Wholesale Lender Inc - 9

make a determination as to whether diversity jurisdiction existed"; "We therefore
vacate the district court's judgement and remand for further proceedings".
On June 12, 2019, despite the fact the record showed that Respondent
AMERICA'S WHOLESALE LENDER had not revived (Dock. No. 1, pp. 45-46).
The District Court ruled against Petitioners (Apx. 5a-8a), and entered Judgment
against Petitioners (Apx. 4a).
On June 9, 2020, the Ninth Circuit affirmed (Apx. la-3a).
REASONS FOR GRANTING THE WRIT.
I. THE NINTH CIRCUIT IS IN CONFLICT WITH THE COURTS OF THE
STATE OF NEW YERK IN THAT RESPONDENT WAS A NEW YORK
CORPORATION THAT WAS DISSOLVED ON JUNE 26, 2016, AND
NEVER REVIVED, MAKING IT INELEIGIBLE TO FILE A NOTICE OF
REMOVAL OF PETITIONERS’ COMPLAINT IN THE DISTRICT
COURT ON MAY 16, 2018.
Respondent America’s Wholesale Lender was not a New York corporation
in 2006. It executed a Deed of Trust with Petitioners in 2006 for a loan on their
house. Respondent has since been dissolved twice; the last time it was dissolved
on June 26, 2016. It was never revived. Yet strangers to this dissolved New York
corporation filed their Notice of Removal to the District Court. The District Court
did not have any jurisdiction in removal to make any decision against Petitioners
and rule against them. It does not matter who it is, even if it was another Bank that
used to help immigrants in California in the 1930’s.
Because for citizenship purposes, eligibility to participate in removing a
case to District Court is contingent on the laws of the State where the corporation
was incorporated, i. e., New York. If Respondent was dissolved as a corporation,
it is mortem-DEADl In civil cases, a person who becomes dead, cannot have any
standing by himself, because he is dead, he is not breathing, and unless the dead is
Petition For Writ of Certiorari-Martinez v. America’s
Wholesale Lender Inc - 10

embalmed in formaldehyde, he started to decay. The Notice of Removal was filed
by interlopers, strangers to Respondent. The Secretary of State of the State of New
York has not rescinded the dissolving of Respondent. Respondent’s Notice of
Removal, unless done by Lazarus or Jesus Christ is a NULLITY and VOID AB
INITIO. The District Court has no jurisdiction to hear the illegally removed case
from the Superior Court of Monterey County, California.
The case of Centurion Capital Corp. v. Guarino, 35 Misc. 3d 1219 (N.Y.
Civ. Ct. 2012), explains that:
“A check of the New York Department of State-Division of
Corporations records reveals that there once was a domestic
corporation in New York called Centurion Capital Corporation,
however, it was declared “Inactive” and dissolved by proclamation
with its authority annulled on June 24, 1992. A dissolution by
proclamation is issued when a corporation is delinquent in its tax
obligations to New York State for a period of two years [Tax Law $
203-al. Such a corporation is “legally dead” [41 East 1st Street Rehab
Corp. v. Lopez, 26 Misc.3d 990 (2009) ].

“Based on these facts and case law, due process requires that
this judgment should be vacated and the case dismissed. The plaintiff
filed more than 13,700 cases in New York City Civil Court and in all
of them, as this one, lacked the legal capacity to bring and maintain
any of those actions. The fact that the plaintiff corporation is neither
an authorized domestic corporation nor an authorized foreign
corporation makes this underlying action defective.”
The Notice of Removal was not authorized under 28 U. S. C., § 1441 (b), and
Federal Rule of Civil Procedure 11, because it is legally DEAD! Just like the dead
people in HBO’s “Six Feet Under”, Respondent America’s Wholesale Lender
should be held in Memoria for being dissolved for not paying taxes under New
York law. It has no legal capacity to remove any case. Because of these reasons,
the District Court lacked jurisdiction in hearing case that was illegally removed,
Petition For Writ of Certiorari-Martinez v. America’s
Wholesale Lender Inc - 11

and the case should be remanded to both the Ninth Circuit and District Court to in
turn remand the case back to the Superior Court of the State of California, in and
for the County of Monterey.
II. THE NINTH CIRCUIT IS IN CONFLICT WITH THE DECISIONS OF
THIS COURT IN THAT BECAUSE OF THE LACK OF CAPACITY,
PETITIONERS JVLAY STILL PURSUE THEIR ACTION, AND THE
MOTION TO DISMISS SHOULD HAVE BEEN DENIED.
Cases such as Centurion Capital Corp. v. Guarino, 35 Misc. 3d 1219 (N.Y.
Civ. Ct. 2012), still make the Notice of Removal void. Respondent still cannot be
resuscitated in the District Court like a stiff, deceased body. Why apply claim
preclusion when the Notice of Removal is void? Respondent should have left
Petitioners alone, not foreclosed upon them. Petitioner’s Complaint alleged that
Respondent, a trade name in 2006 and a dissolved New York corporation as of
June 29, 2016, could not do business and foreclose upon Petitioners.
Certified letters from New York Department of State and California
Secretary of State indicate that Respondent AMERICA'S WHOLESALE
LENDER was not a corporation in New York or California in 2006; said
Respondent was incorporated in New York in 2008, and finally dissolved on June.
29, 2016 (Dock. No. 1, pp. 45-46). Therefore, the Complaint started new Causes
of Action based on the Order of Dissolution. Respondent cannot argue against the
use of the Order of Dissolution and argue claim preclusion. The case of Lucky
Brand

Dungarees,

Inc.,

v.

Marcel

Fashions

Group,

https://www.supremecourt.gov/opinions/19pdf/18-1086 new 5ifl.pdf,

at

(2020), explains that:
“Not only that, but the complained-of conduct in the 2011
Action occurred after the conclusion of the 2005 Action. Claim
preclusion generally "does not bar claims that are predicated on
events that postdate the filing of the initial complaintWhole
(2016) (slip op., at
Woman’s Health v. Hellerstedt, 579 U. S.
Petition For Writ of Certiorari-Martinez v. America’s
Wholesale Lender Inc -12

Inc.,
p.

9

12) (internal quotation marks omitted); Lawlor v. National Screen
Service Corp., 349 U. S. 322, 327-328 (1955) (holding that two suits
were not ‘based on the same cause of action,’ because ‘[t]he conduct
presently complained of was all subsequent to’ the prior judgment
and it ‘cannot be given the effect of extinguishing claims which did
not even then exist and which could not possibly have been sued upon
in the previous case’). This is for good reason: Events that occur after
the plaintiff files suit often give rise to new ‘[mjaterial operative facts’
that ‘in themselves, or taken in conjunction with the antecedent facts,’
create a new claim to relief. Restatement (Second) §24, Comment f, at
203; 18 J. Moore, D. Coquillette, G. Joseph, G. Vairo, & C. Varner,
Federal Practice §131.22[1], p. 131-55, n. 1 (3d ed. 2019) (citing
cases where ‘[n]ew facts create[d a] new claim’).’’(Emphasis added.)
Here, the Order of Dissolution was made effective June 29, 2016. Because
Petitioners provided better proof that there was a dissolution, Petitioners have new
Causes of Action. Accordingly, the Motion to Dismiss should have been denied on
this basis, since the Complaint as a whole was not barred by claim preclusion.
Ill
III
III
III
III
III
III
III
III
III
III
III
Petition For Writ of Certiorari-Martinez v. America’s
Wholesale Lender Inc -13

CONCLUSION.
Petitioners request that the Judgment be reversed, and the District Court
remand the case back to the Superior Court of the State of California, in and for the
County of Monterey.
Dated this 2nd day of November, 2020
Bv:

PETRA M ARTINEZ
P. O. Box 4019
Monterey, CA., 93942
In Propia Persona

Dated this 2nd day of November, 2020
Bv:

Petition For Writ of Certiorari-Martinez v. America’s
Wholesale Lender Inc - 14

STAN ATKINSON
P. O. Box 4019
Monterey, CA., 93942
In Propia Persona

